<html>
<title> - MARKUP OF H.R. 3224, H.R. 2843, COMMITTEE RESOLUTION 111-6, COMMITTEE RESOLUTION 111-7, H.R. 3542, AND H.R. 3489</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





 MARKUP OF H.R. 3224, H.R. 2843, COMMITTEE RESOLUTION 111-6, COMMITTEE 
               RESOLUTION 111-7, H.R. 3542, AND H.R. 3489

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, NOVEMBER 4, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
54-018                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             DANIEL E. LUNGREN, California,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director

 
 MARKUP OF H.R. 3224, H.R. 2843, COMMITTEE RESOLUTION 111-6, COMMITTEE 
               RESOLUTION 111-7, H.R. 3542, AND H.R. 3489

                              ----------                              --
--------


                      WEDNESDAY, NOVEMBER 4, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
California, Davis of Alabama, Lungren, McCarthy, and Harper.
    Staff Present: Jamie Fleet, Staff Director; Tom Hicks, 
Senior Elections Counsel; Jennifer Daehn, Elections Counsel; 
Matt Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Joe Wallace, Legislative Clerk; Daniel 
Favarulo, Legislative Assistant, Elections; Shervan Sebastian, 
Staff Assistant; Victor Arnold-Bik, Minority Staff Director; 
Peter Schalestock, Minority Counsel; Karin Moore, Minority 
Legislative Counsel; Salley Collins, Minority Press Secretary; 
and Mary Sue Englund, Minority Professional Staff.
    The Chairman. I would like to call the Committee on House 
Administration to order.
    We have a number of items on today's agenda. But before we 
begin, I would like to let members know that we have a 
completed calendar for the committee for the 110th Congress, 
and it is available for your review.
    I plan to take up H.R. 3224, H.R. 2843, Committee 
Resolution 111-6, and Committee Resolution 111-7 en bloc.
    [The information follows:]
    


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Does anyone have anything to say on these 
items?
    If there is no objection we order the two bills favorably 
reported and pass the two committee resolutions.
    With regard to Committee Resolution 111-6 regarding Voucher 
Documentation Standards, I agree that we will take up the 
security and printing documentation requirement on the next 
markup. So we are adopting the committee resolution excluding 
those two provisions, and we will work with all and any to 
resolve the differences between now and then.
    And members may insert for the record on all these matters.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Lungren, I would like to recognize you 
for any comments.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    You have accurately reflected the agreement we have entered 
into, with respect to the various bills we are talking about 
today. I appreciate the comity, and I thank you for working so 
well with us.
    The Chairman. Thank you.
    So, without objection, H.R. 3224, H.R. 2843 are ordered 
reported favorably to the House, and then Committee Resolutions 
111-6 and 111-7 are adopted.
    All those in favor, signify by saying, ``Aye.''
    None opposed.
    So ordered; they are adopted.
    The next item on the agenda is H.R. 3542, the ``State 
Admission Day Recognition Act of 2009.''
    This bill, which was introduced by Ranking Member Lungren 
would commemorate each State's admission to the Union by 
directing the Architect to fly a State's flag over the Capitol 
on the anniversary date of its admission, beginning with 
Delaware, the first State.
    I understand that the ranking member has concerns about the 
disposition of the flags. And I commit to working with him to 
word the regulations to provide that, during the first year of 
commemorating, the flags would be delivered to the Governor of 
each State or territory and that, in the future years, the 
Governors will have the option to deliver these flags to 
universities, high schools, and elementary schools.
    I now would like to recognize the sponsor of this 
legislation, the ranking member, Mr. Lungren, for an opening 
statement.
    Mr. Lungren. Thank you very much, Mr. Chairman, for 
bringing this bill to the committee. I am pleased to have 
authored this legislation, brought to me by one of my 
constituents, at least the suggestion was.
    It instructs the Architect of the Capitol to fly flags of 
each individual State of these United States over the Capitol 
Building on the anniversary of the admission of that State into 
the Union. As the embodiment of the phrase which appears on the 
seal of the United States, ``E Pluribus Unum,'' meaning, ``Out 
of Many, One,'' the flying of the States' flags will honor each 
State for their contribution to our country.
    Additionally, this legislation supports the concept that 
our Nation was created to be a Federal system as opposed to a 
centrally based system of government and will serve as a 
reminder of the unique ideas incorporated by our Founding 
Fathers in drafting the Constitution and the charge we carry 
forward as stewards of our Nation.
    And I urge support of my colleagues and thank the chairman 
for bringing the bill before our committee.
    The Chairman. I thank the gentleman.
    And I now call up and lay before the committee H.R. 3542. 
Without objection, the first reading of the bill is dispensed 
with, and the bill is considered as read and open for amendment 
at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. The Chair now would like to offer an 
amendment, which is in the members' packet and which would 
provide greater specifics about how the bill would operate and 
authorize the issuance of regulations.
    Without objection, the amendment is considered as read.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. And I now would like to again ask the ranking 
member for any comments.
    Mr. Lungren. I support the chairman's amendment and ask for 
its adoption.
    The Chairman. Is there any additional debate on the 
amendment? If not, the question is on the amendment.
    All those in favor, signify by saying, ``Aye.''
    Any opposed?
    So ordered. The ayes have it, in the opinion of the Chair, 
and the amendment is agreed to.
    Are there any additional amendments?
    If not, I now move to report H.R. 3542 favorably to the 
House, as amended.
    All those in favor, signify by saying, ``Aye.''
    Any opposed, ``No.''
    So ordered. The ayes have it, in opinion of the Chair. And 
the bill, as amended, is ordered reported to the House.
    Without objection, the motion to reconsider is laid on the 
table.
    The next item on the agenda is H.R. 3489, a bill to amend 
the Help America Vote Act of 2002.
    This bill will protect persons residing in a house subject 
to foreclosure proceedings or in an area which has been 
affected by a natural disaster from challenges by election 
officials to their eligibility to register to vote.
    Because our voter registration system is based on people's 
residence, the current foreclosure crisis has the potential to 
do considerable damage to the integrity of the Nation's 
elections.
    Reports surfaced during the 2008 presidential election that 
political operatives planned to use lists of foreclosed 
properties in Michigan and Ohio to challenge voters' residency. 
Election officials around the country reportedly received 
numerous questions from foreclosed homeowners regarding their 
voting status.
    But there is no rational basis for using foreclosure lists 
to challenge a voter's eligibility. Otherwise-eligible voters 
may be renting a foreclosed home or working with a bank to 
refinance. And voters displaced by hurricanes and other natural 
disasters should have the right to vote in communities in which 
they intend to return.
    H.R. 3489 is an important bill that will help ensure the 
integrity of our elections. It has been a long time since there 
were property requirements for voting. We should act now to 
ensure that voters do not lose their civil right to vote 
because they have lost or may lose their homes. I strongly urge 
support of this bill.
    And I would like to recognize the ranking member, Mr. 
Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I knew that, despite the comity and our agreement on most 
everything, there would be times in which we would disagree.
    Whenever this committee deals with something as sensitive 
as an individual's constitutional right to vote and to not have 
that vote diluted by fraudulent votes, I think we must act 
carefully and deliberately. And when it comes to fundamental 
rights, I would hope that we would not tinker with the law 
based on mere accusations or mere possibilities.
    Yet, as I examine this legislation, I fear that is exactly 
where we are headed. Far from being just unnecessary, I feel 
the legislation could be dangerous to the health of our 
electoral system.
    The two separate prongs of the bill, dealing with the 
victims of natural disasters and individuals facing 
foreclosure, both carry their own set of concerns.
    The most staggering implication of the provision 
prohibiting the challenge of voters in areas that have been 
declared a natural disasters is its breadth. The wording of the 
bill suggests that it would be impossible to challenge anyone 
for any reason if they happen to be in a disaster area.
    For example, in the event that someone attempted to vote 
fraudulently under the name of a person known to be deceased or 
an individual who is known to not be a citizen of the United 
States, it would not be possible to challenge that individual, 
the person attempting to vote, if they live in an area that has 
been declared a disaster area. There is no limiting language to 
suggest that the challenge has to be one based solely on 
residency.
    In addition, there is zero language in the bill that would 
limit how long the prohibition against challenges would last in 
disaster areas. Under the current language of the bill, any 
area that has been declared by the President to be a disaster 
area at any time--no limit--would be subject to a complete ban 
on challenges of any kind. A disaster may have happened and 
recovery completed decades ago, yet the wording of this bill 
would permit no challenges to be brought in these areas. So the 
scope of the provision is truly staggering.
    Presumably, this portion of the bill was drafted to cover 
situations like that which occurred to the victims in Hurricane 
Katrina. Yet the two States affected most by that disaster, 
Mississippi and Louisiana, have both filed letters of 
opposition with the committee.
    In their letters, both secretaries of State's offices--that 
is, of the States most directly affected--detailed the ways in 
which they have already made provisions for displaced voters 
under State law. I would like unanimous consent to enter both 
of those letters into the record.
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lungren. Regarding the foreclosure provision, I can 
understand my colleagues' concerns, given the high number of 
foreclosures. And this particularly affects my State. In fact, 
it particularly affects my district. We do have a large number 
of foreclosures. We have had people who have left our area 
after their house has been foreclosed.
    At times, when they have left, we found that, not only were 
they living there, but we have had some major marijuana growing 
going on in houses in my district that have been foreclosed.
    But to thus my knowledge--and we have not held a hearing on 
this bill, so I can't say for certain--the only basis for the 
foreclosures provision in this bill is a posting on one blog 
citing statements by party representatives that were vehemently 
denied by those who purportedly uttered them. Both parties even 
signed court documents stating they would not use foreclosure 
lists. I have certainly not seen any evidence that foreclosure 
lists were used to challenge voters.
    In my last election, as I mentioned, I was the subject of 
suppression calls to try and limit the number of people voting 
in my district at a crucial time, on the afternoon of the 
election. But I haven't seen any evidence nor do I know 
anything about people being denied their right to vote because 
people used foreclosure lists.
    But even if this were an actual problem, I believe this 
committee could find a more prudent way to protect the affected 
voters. Rather than narrowly focusing on voters affected by 
foreclosure lists as was written, the bill now goes far beyond 
that and establishes a new Federal, quote/unquote, ``good 
cause'' standard by which all voter challenges would be 
measured.
    So we are told that this bill deals with the question of 
foreclosure and deals with the other problem of people in 
natural disaster areas, but it goes far beyond that and creates 
this new standard, good faith standard, to which all voter 
challenges would be measured. And this is without the benefit 
of defining what ``good cause'' would be, even having a hearing 
on what we are talking about.
    I think it would be of great benefit to both the intended 
beneficiaries of the bill and those who would be charged with 
its implementation if the bill were referred to the 
Subcommittee on Elections for a hearing.
    Yet, if the committee proceeds in considering the 
legislation, I would hope, at a minimum, the chairman and my 
colleagues would adopt the amendments we plan to offer to 
address a number of these issues, not to getting rid of the 
final import of this bill but trying to limit its application 
because of the concerns that I have expressed.
    And, with that, I would yield back the balance of my time.
    The Chairman. I thank the gentleman.
    And I would like to recognize the chairwoman of the 
Elections Subcommittee, Ms. Lofgren, for the purpose of a 
statement.
    Ms. Lofgren. Mr. Chairman, first, I would ask unanimous 
consent that documents related to the bill be made a part of 
the record. That would be articles from The New York Times, the 
Michigan Messenger, The Columbus Dispatch; the NAACP Legal 
Defense Fund memo and court order on the case of Herring v. 
Marion County; advisories and press releases from Maryland, 
Ohio, Nevada, Missouri, and Minnesota on challenges related to 
home foreclosure; information regarding the home foreclosure 
and voting bill that passed the Michigan House of 
Representatives last year; as well as letters from the 
Leadership Conference on Civil Rights regarding challenges 
related to home foreclosures.
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Mr. Chairman, it is important that--and we all 
agree on this--that eligible voters be permitted to vote. And 
the use of foreclosure lists to challenge voters has, actually, 
nothing to do with a voter's eligibility.
    Placement of a house on public foreclosure notice doesn't 
say anything about a voter's eligibility. Foreclosure notices 
reflect ownership, not residence, as, for example, eligible 
voters may be renting a foreclosed home. In addition, a 
foreclosure notice does not require anyone to leave his or her 
home, and many homeowners, in fact, do remain in their homes 
well after foreclosure proceedings begin, as they negotiate 
with lenders in an attempt to refinance.
    I would add that the other element to this is that 
individuals who are in foreclosure proceedings are often very 
distraught and sometimes even ashamed of what has happened to 
them financially. And to have the humiliation of being 
challenged off a foreclosure list in front of your neighbors at 
your polling place is something that I think is to be avoided.
    As to the natural disaster element, I think it is worth 
noting, in the case, for example, of the Katrina hurricane, 
that people who maintain their residence, their lawful 
residence, in the zone in some cases took a very long time to 
return. And it is important that those people who maintain 
their legal residence but were displaced have an opportunity to 
continue to vote once in their legal residence.
    So I think this is an important step forward. I hope that 
we can adopt the bill.
    And I yield back the balance of my time.
    The Chairman. I thank the lady.
    Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman.
    I would like unanimous consent to submit for the record a 
USA Today article in which the Macomb Republican county 
chairman named in the MichiganMessenger blog post denies he 
ever intended to use foreclosure lists and demands a 
retraction.
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Harper.
    Mr. Harper. Thank you.
    I would like to take just a minute to expand on a point 
that my colleague from California brought up in his opening 
statement.
    After Hurricane Katrina, one of the many problems facing my 
home State of Mississippi was how to deal with displaced 
voters. The secretary of State, along with our State 
legislature, saw that challenge and met it with legislation 
addressing the problem.
    I find it both presumptive and perhaps somewhat arrogant 
that this committee is considering legislation today having not 
consulted with the States this legislation would affect the 
most.
    In a letter opposing the legislation we are considering 
today, Mississippi Secretary of State Delbert Hosemann offered 
a frank assessment of H.R. 3489, declaring it to be unwise and 
an attempt to Federalize challenges to voter qualifications.
    Secretary Hosemann further explained in his letter that 
this bill poses a serious threat to the integrity of our 
election system by undermining legitimate challenges to voter 
qualification. As an example, he detailed circumstances in 
which a registered voter may be protected from challenge due to 
the locale in the case of a disaster area, despite failing to 
meet the most basic requirement of election law: citizenship.
    When States are responding to their citizens' needs in the 
wake of a natural disaster, what they need is flexibility, not 
a blanket Federal mandate that will handcuff them to one course 
of action. I hope the committee will consider moving this 
misguided and unnecessary legislation and encourage you to vote 
``no.''
    Thank you, and I reserve the balance of my time, Mr. 
Chairman.
    The Chairman. I thank the gentleman.
    Any other statements?
    We do have four votes on the floor. I was hoping we could 
probably get through before that, but it doesn't look like it 
can happen because there are other amendments to this bill. So 
what I would like to do is just recess until the last vote and 
come back and reconvene and just finish this bill up. Okay?
    Thank you all. We are now in recess until the last vote on 
the floor.
    [Recess.]
    The Chairman. I would like to call the Committee on House 
Administration back to order.
    And I now call up and lay before the committee H.R. 3489. 
Without objection, the first reading of the bill is dispensed 
with, and the bill is considered as read and open to amendments 
at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Is there any debate?
    Yes, Mr. Lungren.
    Mr. Lungren. Mr. Chairman, I have an amendment at the desk.
    The Chairman. Okay.
    Mr. Lungren. In fact, I have three amendments.
    The Chairman. The Chair recognizes Mr. Lungren.
    Mr. Lungren. This will be the first amendment.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Amendment No. 1. The Chair recognizes Mr. 
Lungren.
    Mr. Lungren. Mr. Chairman, this amendment addresses 
fundamental ambiguity in the bill as written and, as I see it, 
a danger in the language of the bill. And it attempts to 
address it by striking the amorphous new standard merely 
defined as ``good cause.''
    Right now, the bill would override all States' laws on 
voter challenges and say that challenges cannot be made except 
for, quote/unquote, ``good cause,'' which is not defined in 
this bill. It then provides a nonexclusive list of two things 
that are not good cause, leaving it to creative lawyers in 
every State and local court in the Nation to decide what else 
might not be good cause.
    Mr. Chairman, rather than creating a broad new threshold 
that will undoubtedly lead to conflicting interpretations, I 
would hope that the bill would be narrowly and clearly drafted 
to approach this issue. This is achieved by explicitly 
addressing the two targets of the bill: foreclosure proceedings 
and natural disaster areas.
    Additionally, the original wording of the bill is so broad 
that it may inadvertently prevent valid challenges. For 
example, if hard evidence exists demonstrating that an 
individual is registered and voting in another jurisdiction, 
the bill might block a challenge just because the person also 
claims to reside in a natural disaster area or to have had a 
foreclosure.
    The amendment would make it clear that only challenges 
based solely on those factors and not challenges based on other 
evidence where those factors might be present. It is an attempt 
to try and refine the bill and hopefully not override all of 
the law that currently exists, having been developed over the 
years with all of the States dealing with challenges in their 
jurisdictions.
    And I would hope I could get the support of my colleagues. 
And I will yield back the balance of my time.
    The Chairman. I thank the gentleman.
    Mr. Davis.
    Mr. Davis of Alabama. Mr. Chairman, I will be brief because 
I know that you want to move us to the other amendments, but 
two observations.
    First of all, I think everyone understands, especially my 
friend, the former attorney general of California, that 
forfeiture is a process--or foreclosure, rather, is a process. 
A notice of foreclosure is no more the termination or the end 
of a process than an arrest or an indictment is the end of a 
criminal process.
    I don't think that anyone on the other side of the aisle 
would propose that if someone were arrested that we go through 
and we comb the list of people who have been arrested and try 
to use that to challenge their capacity to vote. The legal or 
the technical capacity is there to do that, but I don't think 
anyone believes that would be a good thing to do from the 
standpoint of public policy.
    It strikes me that, if we use a foreclosure proceeding, or 
the initiation of a foreclosure proceeding, as the basis to 
challenge a voter's suffrage, that is not fundamentally 
different from using an arrest record as the basis to do it, 
that obviously do not result in convictions.
    Second observation: Several years ago, I introduced a bill 
that would have dealt with the problem of displaced voters 
after a natural disaster. The bill was not marked up in 
committee, but I thought that it was an important way to 
resolve the clear ambiguities that exist and that occurred 
after Katrina, when someone is knocked out of their home, they 
don't have a permanent place to live.
    But since that approach wasn't adopted, frankly the bill 
that we have today seems to me to be the next best thing. It 
provides some safe haven for people who may have been affected 
by a natural disaster. And, again, not having acted on the bill 
I proposed several years ago, I think that this is a good 
alternative. So I would certainly urge the rejection of this 
amendment on those grounds.
    I will yield back the balance of my time.
    The Chairman. I thank the gentleman.
    Anyone else wish to speak on the amendment?
    If not, the question is on the amendment offered by Mr. 
Lungren.
    All those in favor, signify by saying, ``Aye.''
    Those opposed, say, ``No.''
    In opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    I would now like to recognize Mr. Lungren.
    Mr. Lungren. Mr. Chairman, I have another amendment. This 
is Amendment No. 3. It is the 18-month expiration.
    The Chairman. Without objection, the amendment is 
considered as having been read.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. And the gentleman is recognized for 5 
minutes.
    Mr. Lungren. Mr. Chairman, this amendment would establish a 
sunset for the application of the restrictions on challenges 
involved in a disaster area.
    Right now, there is absolutely no limitation whatsoever. It 
could be decades later, a year later, or years later. By 
providing an 18-month timeline for the disaster--that is, a 
limit of 18 months after the disaster declaration--we would 
protect against the application of the provisions to an event 
many years past. For example, without a sunset on the 
eligibility of an event, one might be able to argue that a 
natural disaster from the 1980s prevented a voter eligibility 
challenge today.
    The amendment is simply clarifying to ensure that the 
purpose of the remedy is appropriately applied, and the 18-
month period is the same period that FEMA provides temporary 
housing for disaster victims. So I would hope we would get 
support for this limiting amendment.
    And, with that, I would yield back the balance of my time.
    The Chairman. The Chair recognizes Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I think in some ways the amendment actually points to the 
reason that we should have the legislation before us. And I 
think that the 18 months--I mean, we just have to think about 
the number of people in Katrina that were affected and how long 
it took for them to get back. I think about some of the fires 
in San Diego, where people had to wait, you know, a good 2 
years before they even got their insurance to okay their 
development plans.
    And so I think that trying to put a time limit on this, I 
think, is really too limiting. It may be that, you know, 10 
years out would be reasonable, but someone could argue that 
that is not necessarily appropriate either.
    So I think trying to have it--personal responsibility here 
is really important, and people have a number of reasons that 
they have to leave the area in which they choose to vote. And I 
think that we need to be open on this one.
    The Chairman. Mr. Davis.
    Mr. Davis of Alabama. Mr. Chairman, I will be brief again.
    Just 1 month ago, there was a group of folks who came to my 
office who were previously residents of New Orleans. This is, 
by my count, approximately 4 years after Katrina, a little bit 
more than 4 years. These individuals, who I think right now are 
living in the Mobile/Baldwin County area, would love to return 
to New Orleans. They never got the assistance the government 
promised them 4 years ago. And they are exactly in that gray 
area that my bill several years ago sought to address: people 
who were displaced because of Katrina, individuals who have not 
gotten the assistance that was promised them, who have every 
desire and intent to return to their original domicile.
    The problem with the amendment is natural disasters can 
have a long-running consequence. Katrina may be a worst case, 
but it is a worst case that many individuals are living with.
    So, again, I agree with my friend from California that 
there is surely some reasonable time period that we could agree 
on. But it absolutely is not 18 months if people are coming to 
see me 4 years later, much less what would have happened in the 
time frame 18 months from Katrina.
    I will yield back.
    The Chairman. I thank the gentleman.
    Any other discussion on the amendment?
    Hearing none, the question is on the amendment offered by 
Mr. Lungren, No. 3.
    All those in favor, signify by saying, ``Aye.''
    Those opposed, say, ``No.''
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    Mr. Lungren. Mr. Chairman, I have a last amendment.
    The Chairman. Without objection, the amendment is 
considered as having been read.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. And the gentleman is recognized for 5 
minutes.
    Mr. Lungren. This amendment goes to the point that Mr. 
Davis made just a moment ago about the initiation of 
foreclosure. It is also a point that was made by Ms. Lofgren 
when we were here earlier.
    So, while we can all agree that simply having a foreclosure 
proceeding initiated would not be enough to indicate the person 
no longer lives there and therefore is not an eligible voter, 
when a foreclosure is completed and individuals have left the 
residence in question, I think we can agree that this should be 
eligible evidence to challenge a voter. It is not conclusive 
evidence, but it is evidence that would allow the challenge.
    This legislation should not preclude challenges based on 
concrete evidence that an individual no longer resides in the 
home. And the amendment makes clear that this legislation 
applies only to--that this legislation would apply to completed 
foreclosures and not just pending foreclosures, as was the 
complaint raised by the gentleman from Alabama.
    And so I am attempting to try and deal with the issue that 
he mentioned, and hope that this would gain his support and the 
support of others on the committee.
    And, with that, I yield back the balance of my time.
    The Chairman. I thank the gentleman.
    Mr. Davis.
    Mr. Davis of Alabama. If I understand the gentleman's 
amendment correctly, there is still a problem with scope. The 
fact that a foreclosure may be affected still doesn't 
necessarily speak to who actually owns the property and who 
actually may be voting.
    For example, I think someone mentioned earlier that someone 
could be a resident of a foreclosed home, but, again, the fact 
that there is a foreclosure notice doesn't necessarily goes to 
their status, in terms of whether or not they are still in that 
jurisdiction.
    So I am concerned that, once again, the gentleman's 
amendment is going to sweep in a group of people--and whether 
it is a narrow group or a large group, we don't know; whether 
people have a right to exercise the capacity to vote--that it 
is going to sweep in a group of people who were, frankly, not 
intended to be reached by the amendment. And that is why I 
would urge its rejection.
    The Chairman. Any other question on the amendment? Any 
other speakers?
    The question of the amendment is over Mr. Lungren.
    All those in favor, signify by saying, ``Aye.''
    Those opposed, ``No.''
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    I now move to report H.R. 3489 favorably to the House.
    All those in favor, signify by saying, ``Aye.''
    Any opposed?
    In the opinion of the Chair, the ayes have it, and the bill 
is ordered.
    Mr. Lungren. Mr. Chairman, on that I would ask for a 
recorded vote.
    The Chairman. The clerk would call the roll.
    The Clerk. Ms. Lofgren?
    [No response.]
    The Clerk. Mr. Capuano?
    Mr. Capuano. Aye.
    The Clerk. Mr. Gonzalez?
    [No response.]
    The Clerk. Mrs. Davis?
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Davis?
    Mr. Davis of Alabama. Aye.
    The Clerk. Mr. Lungren?
    Mr. Lungren. No.
    The Clerk. Mr. McCarthy?
    [No response.]
    The Clerk. Mr. Harper?
    Mr. Harper. No.
    The Clerk. Chairman Brady?
    The Chairman. Aye.
    The vote is four ayes, two against. The bill passes.
    And, without objection, the motion to reconsider is laid 
upon the floor.
    Without objection, the staff will be authorized to make any 
necessary technical and conforming changes to the matters 
considered today.
    And the committee meeting on House Administration now 
stands adjourned. Thank you all.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

</pre></body></html>
